<html>
<title> - THE STATUS OF THE DISTRICT OF COLUMBIA'S YEAR 2000 CONVERSION COMPLIANCE AND TECHNOLOGY IMPROVEMENT PLAN</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



 
     THE STATUS OF THE DISTRICT OF COLUMBIA'S YEAR 2000 CONVERSION 
               COMPLIANCE AND TECHNOLOGY IMPROVEMENT PLAN

=======================================================================

                                HEARING

                               before the

                          SUBCOMMITTEE ON THE
                          DISTRICT OF COLUMBIA

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 24, 1999

                               __________

                           Serial No. 106-101

                               __________

       Printed for the use of the Committee on Government Reform





  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform
                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
63-439 CC                   WASHINGTON : 2000




                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
JOHN L. MICA, Florida                PATSY T. MINK, Hawaii
THOMAS M. DAVIS, Virginia            CAROLYN B. MALONEY, New York
DAVID M. McINTOSH, Indiana           ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             CHAKA FATTAH, Pennsylvania
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
MARSHALL ``MARK'' SANFORD, South     DENNIS J. KUCINICH, Ohio
    Carolina                         ROD R. BLAGOJEVICH, Illinois
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
LEE TERRY, Nebraska                  THOMAS H. ALLEN, Maine
JUDY BIGGERT, Illinois               HAROLD E. FORD, Jr., Tennessee
GREG WALDEN, Oregon                  JANICE D. SCHAKOWSKY, Illinois
DOUG OSE, California                             ------
PAUL RYAN, Wisconsin                 BERNARD SANDERS, Vermont 
HELEN CHENOWETH, Idaho                   (Independent)
DAVID VITTER, Louisiana


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
           David A. Kass, Deputy Counsel and Parliamentarian
                      Carla J. Martin, Chief Clerk
                 Phil Schiliro, Minority Staff Director
                                 ------                                

                Subcommittee on the District of Columbia

                  THOMAS M. DAVIS, Virginia, Chairman
CONSTANCE A. MORELLA, Maryland       ELEANOR HOLMES NORTON, Washington, 
STEPHEN HORN, California                 DC
JOE SCARBOROUGH, Florida             CAROLYN B. MALONEY, New York
                                     EDOLPHUS TOWNS, New York

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
                      Howie Denis, Staff Director
                 Anne Barnes, Professional Staff Member
                   Bob Dix, Professional Staff Member
               Melissa Wojciak, Professional Staff Member
                           Jenny Mayer, Clerk
                      Jon Bouker, Minority Counsel




                            C O N T E N T S
                                ----------                              
                                                                   Page
Hearing held on September 24, 1999...............................     1
Statement of:
    Williams, Anthony, Mayor, District of Columbia; Constance 
      Newman, vice chairman, District of Columbia Financial 
      Responsibility and Management Assistance Authority; 
      Kathleen Patterson, councilmember, ward 3, District of 
      Columbia City Council; Suzanne Peck, chief technology 
      officer, District of Columbia; Jack Brock, Director, 
      Information Management Issues, Accounting and Information 
      Management Division, U.S. General Accounting Office; and 
      Gloria Jarmon, Director, Health, Education and Human 
      Services Accounting and Financial Management Issues, 
      Accounting and Information Management Division, U.S. 
      General Accounting Office..................................    12
Letters, statements, et cetera, submitted for the record by:
    Brock, Jack, Director, Information Management Issues, 
      Accounting and Information Management Division, U.S. 
      General Accounting Office, prepared statement of...........    52
    Davis, Hon. Thomas M., a Representative in Congress from the 
      State of Virginia, prepared statement of...................     3
    Jarmon, Gloria, Director, Health, Education and Human 
      Services Accounting and Financial Management Issues, 
      Accounting and Information Management Division, U.S. 
      General Accounting Office, prepared statement of...........    70
    Newman, Constance, vice chairman, District of Columbia 
      Financial Responsibility and Management Assistance 
      Authority, prepared statement of...........................    33
    Norton, Hon. Eleanor Holmes, a Representative in Congress 
      from the District of Columbia, prepared statement of.......     8
    Patterson, Kathleen, councilmember, ward 3, District of 
      Columbia City Council, prepared statement of...............    23
    Peck, Suzanne, chief technology officer, District of 
      Columbia, prepared statement of............................    37
    Williams, Anthony, Mayor, District of Columbia:
        DC Millennium Celebration Executive Summary..............    89
        Prepared statement of....................................    16



     THE STATUS OF THE DISTRICT OF COLUMBIA'S YEAR 2000 CONVERSION 
               COMPLIANCE AND TECHNOLOGY IMPROVEMENT PLAN

                              ----------                              


                       FRIDAY, SEPTEMBER 24, 1999

                  House of Representatives,
          Subcommittee on the District of Columbia,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 11 a.m., in 
room 2154, Rayburn House Office Building, Hon. Thomas M. Davis 
(chairman of the subcommittee) presiding.
    Present: Representatives Davis, Morella, Horn, and Norton.
    Staff present: Howie Denis, staff director/counsel; Anne 
Barnes, Bob Dix, and Melissa Wojciak, professional staff 
members; David Marin, communications director; Jenny Mayer, 
clerk; Jean Gosa, minority clerk; and Jon Bouker, minority 
counsel.
    Mr. Davis. Good morning and welcome.
    The meeting will come to order. The hearing is taking place 
at a very critical time for the District of Columbia. Our 
bipartisan legislation to expand higher educational opportunity 
is poised for passage in the Senate next week. I look forward 
to very prompt House concurrence in the transmittal to the 
White House.
    The D.C. budget containing the funds for this I understand 
is going to be vetoed and sent back here, and that's going to 
be a struggle to keep those dollars in quite candidly. But we 
will do everything that we can because it's a great program.
    I think the difficulty with the subject of today's hearing 
is, is the city able to manage the money correctly that is sent 
from the Federal Government, and this just adds another wrinkle 
into how Congress will react to money coming back here under a 
veto at a time when budgets are very, very tight. My assurance 
that I will do everything I can to keep those dollars here for 
the city as we try to work through this difficulty.
    But I have to be candid, there are a lot of competing 
consistencies up here for those dollars. And so let's try to 
work together and do the best we can. A lot of progress has 
been made. Private sector investment decisions now include the 
District as a viable regional partner. Wall Street has 
acknowledged this improvement. Population enhancement and 
stability remain one of our top goals. So far as Y2K is 
concerned, it's my understanding that there is a supplemental 
budget request pending with the White House's Office of 
Management and Budget.
    Assuming the pending budget itself becomes law, eventually, 
this would provide additional Federal funds to address the 
city's Y2K mitigation effort. For all of these reasons and 
more, I again would hope that we can find a way to let this 
budget go into effect. Otherwise, losing dollars in one area 
means we have to cut and paste, and it's just not a good thing 
for the city or the region.
    The District's Y2K compliance program is mixed. The team 
which has been assembled is doing a good job under very 
difficult circumstances, but the mitigation project started 
late, and it's been forced to play catchup. Consequently, the 
risk and the cost is higher than usual. Effective contingency 
planning is essential to minimize the potential for serious 
service interruptions.
    While most of the District's leadership has proclaimed its 
Y2K commitment as a high priority, the evidence suggests that 
not everybody has followed through. I am concerned and troubled 
by the GAO report that documents serious problems. Especially 
troubling is the fact that a contract with the prime Y2K 
consultant was recently allowed to lapse. So we're going to try 
to find answers to those today.
    Also troubling is a report from the District's Inspector 
General identifying major concerns. These include funding, 
training, and agency compliance problems, along with poor 
communication, cooperation and coordination.
    I certainly acknowledge that progress though has been 
achieved, and we can't lose sight of that fact. I don't want to 
minimize the accomplishments that have been made to date, but 
we can't afford to lose our focus and tenacity as time's swift 
chariot draws near. Now is the time to reaffirm our commitment 
to achieving a favorable outcome.
    And today we will try to hone in on those issues and as we 
have on so many tough issues facing the city try to work 
together to work on appropriate solutions. We expect that the 
lights will stay on after midnight on New Year's Eve, and other 
municipal services will continue without interruption.
    In that regard, I want to note that a New Year's Eve 
millennium celebration of some sort is being planned for the 
District at the urging of the White House and others. We want 
to look forward to learning how this event could impact the 
ability of various local agencies to respond to potential Y2K 
problems.
    My thanks as always to my ranking member of this 
subcommittee, Eleanor Holmes Norton, for her continuing 
leadership and guidance through this. The city has been, I 
think, blessed with her leadership through some very difficult 
times over the last 5 years. I also want to thank the vice 
chairman of the subcommittee Connie Morella and, of course, 
Steve Horn, who has shown national leadership on the Y2K 
compliance matters.
    I look forward to hearing from our distinguished panel. And 
I now yield to my friend the delegate from the District of 
Columbia, Ms. Norton for her opening statement.
    [The prepared statement of Hon. Thomas M. Davis follows:]
    [GRAPHIC] [TIFF OMITTED] T3439.144
    
    [GRAPHIC] [TIFF OMITTED] T3439.145
    
    Ms. Norton. I want to thank Chairman Davis for his 
consistent attention to Y2K in the District. I also want to 
thank District officials for a phenomenally improved job of 
meeting the unprecedented Y2K challenge they have faced.
    This week the Washington Post reported what amounted to a 
C-plus, maybe even a B-minus for D.C. Y2K readiness compared of 
course to higher marks for Virginia and Maryland. The 
difference is that the District did not even report to class 
until late, a problem of the District's own making to be sure, 
and had a lot of makeup work to do.
    Mayor Anthony Williams' interim City Administrator Norman 
Dong and Chief Technology Officer Suzanne Peck and her staff 
had no responsibility for the late start, but they have moved 
forward without excuses to achieve what appears to be a photo 
finish that should avoid a crisis.
    Thanks also are due to the Clinton administration, 
beginning with the President, who included the District in the 
Federal Government's Y2K budget. The administration agreed that 
it was in the interest of the Federal Government to give this 
assistance to the District as the seat of government and work 
with me to have D.C. receive Federal Y2K funding. Without 
quickly funding the District's startup effort, a Y2K 
catastrophe in the city seemed inevitable only a few hearings 
ago. Not only did the District receive an initial grant of 
$61.8 million in fiscal year 1999, the city got another $20 
million in extra funds from the District appropriation when it 
was negotiated by the White House as a part of the omnibus 
appropriation bill for fiscal year 1999.
    This morning embargoed GAO testimony was leaked to shift 
the emphasis from the District's extraordinary success in 
making up for lost time in a way no one predicted at our last 
hearing. According to the GAO, the District has not been able 
to track and account for all the money allocated thus far. 
However, OMB and the District have been consistently working on 
this problem, despite the concern that personnel necessary for 
the Y2K effort not be drawn into important but not nearly as 
critical auditing matters.
    OMB assured me several months ago that there was no 
evidence that money was being misspent. The District took the 
sensible step of commissioning an outside audit to resolve 
financial tracking issues rather than side tracking its 
critical high-level Y2K personnel into financial tracking 
duties.
    We are grateful not only for the original Y2K grants and 
the extra funds included in the Y2K 1999 appropriation by the 
President, but also for the active participation of the Office 
of Management and Budget in assisting the District. Expert 
assistance has come from the top of the President's Council on 
Year 2000 Conversion, including frequent meetings and advice 
and counsel involving John Koskinen, chair of the President's 
Council on Y2K Conversion, Diedre Lee, administrator of Federal 
Procurement Policy, and OMB and Sally Katzen, counselor to the 
Director of OMB.
    The important news for today's hearing surely is that the 
District has done far better at achieving Y2K compliance than 
most anticipated. It was always clear that the matter would go 
down to the wire and that as in other cities, emphasis had to 
be placed on contingency planning. Among the most important 
tasks that remain is to avoid contributing to the problem by 
public actions and statements that distract from the success 
that is clear and that can panic the public.
    Rather the example to be followed was set by Federal 
Reserve Chairman Alan Greenspan a few days ago, who warned 
against actions such as withdrawal of funds from banks or ATMs 
and other actions that create problems that will be of our own 
making.
    In the District, Members of Congress, local officials, 
business people and civic and community leaders have an 
obligation to speak responsibly about Y2K, pressing local 
officials hard to attend to the task that remain is part and 
parcel of assuring accountability.
    Actions and talk that do not take account of progress made 
and precautions taken could lead to a rush to banking 
institutions, food stores, gas stations and other hoarding that 
could promote scarcity, inflate pricing artificially and cause 
disruption needlessly. The District is doing its part very well 
against all the odds, and the city deserves as much praise from 
us today as it has gotten criticism in the past.
    I look forward to testimony from today's witnesses who have 
the responsibility, have accepted it and are closest to the 
facts we need to hear.
    Mr. Chairman, if I may, I understand that you spoke of the 
pending appropriation before I came to this hearing. I believe 
it is irresponsible to engage in threats concerning the D.C. 
appropriation. And I want to say to all within the call of my 
voice that the only way for the District of Columbia to lose 
any money in the appropriation is for the President of the 
United States to give it up.
    Throughout the appropriation process, when the Democrats in 
the House and the Democrats in the Senate felt they had to vote 
against our appropriation because of the way money was 
manipulated, because of the way the District appropriation 
was--the in-state tuition was being treated and because of the 
attachments.
    Throughout that time, I have been every step of the way in 
touch with the highest levels of the White House who every step 
of the way have assured me that the District's appropriation 
was not in danger. If it is in danger, it will be because the 
Republican majority chooses to fight to punish the District for 
standing up for its rights when it handed the Congress a 
balanced budget with a surplus and the tax cuts.
    Now, we would like to read a statement from the spokesman 
for Jack Lew, the highest official at OMB: Funding levels are 
really not in dispute here. The issue at hand is resolving the 
problem presented by a wide array of riders that would keep the 
District from running its business freely in a way that is 
consistent with home rule.
    On the specific issue of funding, Congressman Davis' own 
record shows that he is a strong advocate and ally in keeping 
the District meeting its funding needs. By the same token, our 
commitment on
funding is unwavering. There is no reason that a possible CR 
should lead to a situation that would deprive the District of 
funding.
    Thank you, Mr. Chairman.
    [The prepared statement of Hon. Eleanor Holmes Norton 
follows:]
[GRAPHIC] [TIFF OMITTED] T3439.001

[GRAPHIC] [TIFF OMITTED] T3439.002

    Mr. Davis. Thank you, Ms. Norton. And I commented on this, 
not just before you came in, but over the last few weeks, and 
not in any threatening manner. I think anybody who heard my 
comment made it clear that sometimes you have to let people 
know where your judgment leads you in conversations. 
Unfortunately, I'm not the appropriator or I could assure you 
that every dollar would come back to the city. As I said 
before, we're going to fight for it.
    But as you know we had a struggle with many of the 
appropriators to get the money that we got earlier this year in 
this legislation. Other budgets are tight, education is tight, 
environmental legislation, NASA, all of these budgets are being 
cut and slashed.
    And my fear, and I think it's an important sometimes for 
elected officials to share concerns, not in a threatening 
manner, but in a very realistic legislative way to say that 
these dollars are going to be quickly reclaimed by other 
committees.
    I will continue to do everything I can to protect those 
dollars for the District of Columbia. But I think it will be 
naive of me to sit up here and smile and just try to cover 
myself that somehow this did not take place. The two riders 
that are on the bill this year that were not on the bill the 
President signed last year call for forbidding the legalization 
of marijuana and the cell towers in Rock Creek Park, which were 
put on by the Democratic leader in the U.S. Senate. These are 
the items.
    I did not support all of these riders, and in fact I spoke 
against some of them on the floor. And I would like to see some 
of them go off. But you have to understand there is a process 
where we get a lot of people into the mix sometimes who don't 
always agree with us, and we have to give our best judgment in 
trying to get the best results for this city in the region.
    I now recognize Vice Chairman Mrs. Morella.
    Ms. Norton. Mr. Chairman. Mr. Chairman, if I may, I believe 
if you would put this matter into play at this hearing, as the 
representative of the District I should at least be able to 
respond to the comments you made.
    Mr. Davis. You responded earlier.
    Ms. Norton. You're the one that put this into play, Mr. 
Chairman. And it is your comments that are seeking to 
intimidate the District and I intend to use my time in order to 
respond to those comments.
    Mr. Davis. Mrs. Morella.
    Mrs. Morella. Thank you, Mr. Chairman, back to the subject 
of Y2K. And I appreciate the timing of your holding this 
important hearing. I think we've got 98 days after today when 
we will be celebrating January 1, 2000, and we want to make 
sure that the Nation's Capital is fully prepared. Steve Horn 
and I remember 3\1/2\ years ago when we had the first joint 
subcommittee's hearing on Y2K. That was the time when everybody 
thought Y2K, with the exception of a few, was a breakfast 
cereal, well, it's not. And the time is now.
    And we determined that the Federal Government is working 
much too slowly on that. We've been working with the 
administration since then to ensure that the Federal Government 
will operate without interruption, and there will be end-to-end 
contracts to make sure that there is compliance. And we helped 
to create a national Federal strategy, finally happened.
    We've had agencies reporting to us on a quarterly basis and 
moving out to contractors, State and local government and 
internationally. It was just a year since this Subcommittee on 
the District of Columbia, the Subcommittee on Government 
Management, Information, and Technology and the Subcommittee on 
Technology conducted an oversight hearing to examine the status 
of the District of Columbia's Y2K compliance efforts.
    At that time it was determined that the District had only 
begun to address the year 2000 problem, and in June 1998, that 
was much later than the surrounding metropolitan jurisdictions 
and aroused some concern with us. The District had made only 
limited progress in addressing the year 2000 problem. It lacked 
both a structure and the resources necessary to do so. Well, 
according to an article in the Washington Post earlier this 
week, although the District is less than 90 percent complete on 
their Y2K work, expectations are that city residents will enter 
the millennium without major disruptions.
    I know there is still concerns, including insufficient 
funding for Y2K, the unmet needs, slow procurement processes, 
ineffective communication and coordination among District 
agencies.
    And then today, we read in the paper that the District of 
Columbia has lost track of how some of this money has been 
spent, particularly the $120 million that was allocated for its 
late start in Y2K. I firmly believe that with the strength, 
expertise and management capabilities of the District 
leadership, such as the distinguished panel before us, that we 
can together overcome these deficiencies in correcting the year 
2000 problem, and that we will have answered today the extent 
of the problem, the solution, where the money has come from, 
how it has been used.
    So I look forward to hearing from our distinguished 
panelists. I thank you, Mr. Chairman, for having this meeting 
at this time and for your excellent oversight over the District 
of Columbia, our Capital City, of which I'm very proud. Thank 
you.
    Mr. Davis. Thank you very much.
    And now I would yield to the gentleman from California, who 
has shown a lot of leadership on the Y2K issue nationally.
    Mr. Horn. Well, I thank the chairman. I will yield any time 
I might have spent listening to myself to the Mayor of 
Washington, DC, and his fine team so we can hear what's going 
on. Thank you.
    Mr. Davis. Thank you very much.
    Let me call our panel of witnesses up to testify Mayor 
Anthony Williams, Connie Newman, vice chairman of the Control 
Board, Kathy Patterson of the D.C. City Council, Susan Peck, 
the District's chief technology officer, and two 
representatives of the General Accounting Office, Jack Brock, 
who will report on operational issues, and Gloria Jarmon, who 
will address financial issues.
    As you know, it's the policy of this committee that all 
witnesses be sworn before they testify. So if you could rise 
with me and raise your right hands.
    [Witnesses sworn.]
    Mr. Davis. I thank you. You can be seated.
    To afford sufficient time for questions, we'll have the 
testimony, if you could limit yourselves to no more than 5 
minutes, we will have a light on. And at the end of 4 minutes, 
the yellow light will go on and it will give you a minute to 
sum up. We will open it up for questions.
    Mr. Horn. Mr. Chairman, if I might, can we also limit 
ourselves to 5 minutes. We do that in our own subcommittee.
    Mr. Davis. We can go to an additional round if we need to, 
and we will do that.
    Mr. Horn. Thank you.
    Mr. Davis. All written statements from witnesses will be 
made a part of the permanent record, and we will begin with 
Mayor Williams, followed by Councilmember Patterson, Control 
Board Chairman Newman, the CTO, Susan Peck, and the GAO 
Directors Jack Brock and Gloria Jarmon.
    Mayor Williams, thank you very much for being with us. I 
think Ms. Norton made it clear that a lot of these problems 
didn't begin on your watch. You, in fact, if anything, have 
given it appropriate focus since you've been here, and we 
appreciate it. Thank you.

 STATEMENTS OF ANTHONY WILLIAMS, MAYOR, DISTRICT OF COLUMBIA; 
CONSTANCE NEWMAN, VICE CHAIRMAN, DISTRICT OF COLUMBIA FINANCIAL 
 RESPONSIBILITY AND MANAGEMENT ASSISTANCE AUTHORITY; KATHLEEN 
  PATTERSON, COUNCILMEMBER, WARD 3, DISTRICT OF COLUMBIA CITY 
 COUNCIL; SUZANNE PECK, CHIEF TECHNOLOGY OFFICER, DISTRICT OF 
COLUMBIA; JACK BROCK, DIRECTOR, INFORMATION MANAGEMENT ISSUES, 
 ACCOUNTING AND INFORMATION MANAGEMENT DIVISION, U.S. GENERAL 
    ACCOUNTING OFFICE; AND GLORIA JARMON, DIRECTOR, HEALTH, 
     EDUCATION AND HUMAN SERVICES ACCOUNTING AND FINANCIAL 
   MANAGEMENT ISSUES, ACCOUNTING AND INFORMATION MANAGEMENT 
            DIVISION, U.S. GENERAL ACCOUNTING OFFICE

    Mayor Williams. Right. But, Mr. Chairman, Congressman 
Norton, and members of the committee, as Congresswoman Norton 
has stated, you accept everything on your watch, because I'm 
here now. And so this is a top priority, and we're going to see 
it through.
    But I appreciate the opportunity to appear before you to 
discuss our readiness efforts for Y2K. And before I begin, I 
would like to take a moment and thank our Congresswoman, 
Eleanor Holmes Norton for her assistance in facilitating the 
approval of the Federal OMB funds for this effort, because we 
would not be where we are now, where I think we are, which is 
substantial progress, but for that funding. And we appreciate 
it, and it is acknowledged.
    In our February testimony, we stated and we recognize that 
the District was behind almost every comparable municipality in 
its Y2K compliance and stated that our late start would not 
prevent us, however, from successful completion of the Y2K 
project. And while we're still committed to that promise, we 
must acknowledge that there is much work to be done in a very 
short time. Throughout my testimony, I'm going to discuss steps 
that we've taken to ensure that there is no disruption in 
District services on January 1, 2000.
    Despite the serious challenges that we face, including a 
late start, significantly outdated technology and a broken 
governmental structure, I believe much progress has, in fact, 
been made. Many agencies, particularly the public safety 
agencies, Metropolitan Police Department, Fire and Emergency 
Services, Department of Corrections, Emergency Management 
Agency, are well on their way toward Y2K compliance, and that 
is detailed in my written testimony. And I won't go into it in 
detail, but I do refer you to it.
    In her testimony, Susan Peck, our chief technology officer, 
will provide specific details regarding our Y2K remediation 
efforts. Y2K is a top priority, and we are treating it as such. 
We've instituted a monitoring function to track the progress of 
our activities and eliminate obstacles to their success.
    The status of the Y2K project is on the agenda of every 
weekly cabinet meeting that I personally chair. Since May, I 
have also in addition to this conducted an executive steering 
committee meeting every 2 weeks specifically to review the 
progress on Y2K. In addition to all of our agency heads that I 
mandate that each of them personally attend this meeting, John 
Koskinen, the President's Y2K chair, and representatives from 
the GAO and OMB attend these meetings.
    Additionally, the city administrator has daily meetings 
with key project and supply line staff to review the activities 
required to ensure that the District is functioning as we 
intend. In addition, we have initiated a resource review panel 
to conduct detailed implementation reviews.
    We're working closely with this panel, which reports 
directly to the city administrator, and is comprised of the 
agency senior managers in charge of major Y2K efforts, the 
chief technology--excuse me, chief financial officer, as well 
as our chief procurement officer.
    The resource review panel charter is to, No. 1, assess the 
state of Y2K readiness of the District's most critical business 
processes; and, two, prioritize the allocation of resources to 
the tasks which remain in order to ensure continuity and 
operations.
    The panel's initial reviews were completed earlier this 
week, and in the coming days we will have their report 
depicting a more clear view of the scope and priorities of the 
work that remains.
    Let me say a word about contingency planning. We believe 
that the most critical agencies have a low risk of failure; 
however, we are taking nothing for granted and have conducted 
extensive contingency planning in all of the mission critical 
agencies. Additional work is scheduled for rigorous testing of 
these contingency plans. Our contingency planning is being 
performed in two phases within each agency. In phase 1, we're 
formulating our alternative means of doing business should a 
failure occur; and in phase 2, we rehearse what is necessary 
should any contingencies be needed.
    Specifically, the second phase consists of making sure that 
plans are feasible, resources are in place to implement the 
plans and the plans are tested. We're being proactive in our 
contingency planning by ensuring that funding is in place and 
appropriate procurement actions are taken. We've completed 
phase 1 contingency planning except in a few isolated instances 
and have begun phase 2 planning in many areas.
    For example, in Department of Public Works, we've conducted 
simulations as well as field tests. Tomorrow, Saturday, we will 
test the administrative aspects of business processes for snow 
removal, and a field test will be conducted later this year. 
Now as you can imagine, this process has been made even more 
important by special events that will be held on the Mall on 
New Year's Eve, such as the millennium event. So what is 
already logistically challenging has now increased in geometric 
proportion, but I believe we will be prepared for that.
    We're also planning and practicing for less visible but 
equally important business processes. I believe we have sound 
plans for payroll and pensions. We have detailed procedures for 
Medicaid payments, disability compensation and other related 
financial systems. We have plans for emergency procurements and 
facilities management. And we have plans for health and medical 
processes.
    In fact, of the 86 business processes that we have 
identified as critical, we have contingency plans completed for 
all but three, two of which will be complete this month, and 
the remaining one will be completed next month.
    While the contingency plans are critical to our Y2K 
success, they will also serve as foundation for future business 
process improvement efforts. Now, in terms of various areas of 
concern, while I am pleased with our progress, we take nothing 
for granted; therefore, we have tasked our city administrator 
with conducting an independent review, and this is typical of 
all major systems efforts and independent verification 
validation of our District's Y2K efforts.
    An international accounting and management consulting firm 
conducted this and delivered a preliminary draft of their 
findings earlier this month. Given their findings, we have two 
areas of concern. The first concern and most troubling to me as 
a former CFO is a lack of stringent financial management and 
tracking for the Y2K effort. While the bulk of costs have been 
incurred for IBM services and these costs can be tracked at the 
various levels, the District currently cannot frankly and 
candidly attribute expenditures to specific agencies or Y2K 
functions.
    This Wednesday, September 22nd, a new financial team was 
put in place to, one, support day-to-day operations, and within 
the coming weeks, give us a detailed depiction of these 
expenditures.
    Second, because of our late start, we were forced to deploy 
numerous resources simultaneously and conduct many activities 
in parallel. Specifically, responsibility for mediation and 
testing of mission critical systems and applications is shared 
by both the Y2K project office and individual agencies.
    This strategy has led to a somewhat fragmented management 
structure and inconsistencies in reporting of progress. We will 
continue conducting the resource review panel in daily city 
administrator's Y2K meetings; in the coming days, we will take 
the necessary actions to strengthen the program management for 
this critical close of this activity.
    We are committed to implementing a sound process to not 
only get this project done in a timely fashion, get it done in 
an effective fashion, but get it done in terms of financial and 
management reporting that gives everyone the confidence and 
comfort level that I think this project deserves.
    I have additional testimony, but it's in writing and will 
be submitted for the record. And I thank the committee for the 
opportunity to appear today and answer later any questions you 
may have.
    [The prepared statement of Mayor Williams follows:]
    [GRAPHIC] [TIFF OMITTED] T3439.003
    
    [GRAPHIC] [TIFF OMITTED] T3439.004
    
    [GRAPHIC] [TIFF OMITTED] T3439.005
    
    [GRAPHIC] [TIFF OMITTED] T3439.006
    
    Mr. Davis. Thank you very much.
    Ms. Patterson.
    Ms. Patterson. Thank you, Mr. Chairman. Good morning, I am 
Kathy Patterson. I'm the chairman of the D.C. Council's 
Committee on Government Operations which has oversight 
responsibility for information technology. Chairman Linda Cropp 
asked me to testify on her behalf on the District's efforts to 
ensure Y2K compliance.
    We have made considerable progress during the last year, 
and we have adhered closely to the timetables set out by Mrs. 
Peck when she became chief technology officer last year. In the 
final months of the project, we have very little margin for 
error, with remediation targeted for completion at the end of 
this month and the implementation of fully compliant and tested 
systems scheduled for November. Yet there has been abiding 
strengths in this process.
    The District's Y2K project has demonstrated the ability to 
track progress or the lack thereof very closely and to take 
quick and effective corrective action when needed.
    At one point or another, for example, the District's 
information technology systems for payroll, unemployment 
insurance and criminal justice systems have verged on Y2K 
failure. But the project staff have intervened and resolved 
those problems. To date the District has not experienced any 
Y2K-related failures. This is important empirical evidence 
because many programs have already begun inputting dates into 
the year 2000 and beyond.
    Although the outcome of Y2K project is largely in the hands 
of agency managers, the legislature has a continuing and 
important role. The Council and its committees must maintain 
oversight of this effort. And we have used our law making 
powers to aid in the conversion. During the past year and a 
half the Committee on Government Operations has held a regular 
series of oversight hearings on Y2K and has also reviewed the 
progress of the project in budget performance review and 
management reform hearings.
    We've had joint hearings this year, three to date, on Y2K 
and human services, public safety and public utilities in 
partnership with relevant other council committees. Our final 
Y2K hearing on contingency planning is set for November 17th. 
This past Wednesday we had an overview of Y2K readiness on the 
part of public utilities, specifically Pepco, Washington Gas 
and Bell Atlantic; each witness representing each utility 
testified that they are Y2K ready.
    One concern I have coming out of that hearing is the 
oversight to date by the Public Service Commission. The PSC 
began its Y2K oversight last year but did not until this 
September contract with a consultant for independent 
verification, and validation of all the readiness statements 
made by the utilities themselves. The commission's consultant 
is scheduled to report in mid-November on that effort.
    Another concern raised by public witnesses Wednesday 
concerns areas of readiness in areas that are not strictly 
speaking government responsibilities, such as the supply chain 
for food, health equipment and medicine and other critical 
commercial goods, and we are adding such issues to the schedule 
for our November oversight hearing.
    One concern raised by the utility witnesses was the impact 
of the celebrations on the Mall on other public safety 
resources. The ability of a Pepco repair truck to get to the 
hospital with a power outage will depend on police assistance, 
for example, and ongoing discussions among the utilities, the 
public safety agencies, facilitated by our emergency 
preparedness agency and the technology office, will address 
these concerns.
    We cannot rely on self reports. We must insist on 
independent verification and validation for utilities as well 
as our own government agencies. I am pleased that the 
District's chief technology officer, earlier contracted for two 
different sources of independent verification and validation, 
using alternate test methodologies for its own Y2K project, and 
we will continue to monitor the ongoing work of the District's 
Public Service Commission in this regard.
    In addition to oversight, the Council has also used its 
legislative powers to support the successful Y2K conversion. In 
1998, we established the Office of the Chief Technology Officer 
as a separate agency with authority for information technology 
policy standards and technical assistance.
    We also enacted legislation, the Year 2000 Government 
Computer Immunity Act of 1998, which immunizes the District 
against any lawsuit or administrative action arising from Y2K 
failure. More recently, we acted swiftly to streamline our own 
contract review process to expedite Y2K procurements. In July 
again the Council acted to allow the receipt and approval of 
contracts during our legislative recess.
    This rule change allowed several important Y2K contracts to 
go forward, including a 4.2 million contract for a unified 
computer aided 911 dispatch system for police and fire 
departments. The Council has been a partner in the Y2K effort 
in providing oversight and clearing away statutory and 
regulatory roadblocks.
    Let me conclude my testimony with a note of optimism. The 
District's investment in the Y2K project and the anxiety and 
hard work that has accompanied it will pay off long after the 
final data field is fixed. Through this particular trial by 
fire, we have developed capacity in the information technology 
field that we simply did not have before.
    We now have a strong and effective central technology 
office. We have technology standards to ensure that new systems 
and equipment are state-of-the-art. We have an inventory of all 
information technology systems and equipment. We've developed 
contingency plans that can serve as the basis for disaster 
recovery. We've replaced obsolete systems and are consolidating 
and upgrading our data centers.
    We need to preserve and extend these gains by developing 
applications that will improve public services and by exploring 
new technologies such as electronic commerce.
    Finally, I would like to comment very briefly on the 
article in today's Washington Post relative to Y2K funding and 
tracking. I do anticipate that the GAO witnesses will correct 
any of the overstatements contained in that news article. But I 
just would like to share a concern. There has been a tension 
evident in our government that derives from the extraordinary 
independence granted the chief financial officer by Congress 
during the control year.
    That independence means that an operating agency director 
does not have a financial officer reporting to him or her. The 
agency CFO reports instead to the District CFO. In the case of 
Y2K expenditure tracking, the Inspector General has noted 
difficulties in sharing data, and I suspect that this results 
at least in part from the fragmented responsibility.
    The issue of the independence of the CFO is something we 
need to carefully consider as we contemplate moving out of the 
control year. It is my own view that in a reform government, 
financial officials should report to elected officials so we 
all know whom to hold accountable.
    I would also just point out for the record that the 
Inspector General is also under my committee's oversight 
purview, and among our audit plans right now is an audit to 
determine whether the Office of the Chief Technology Officer 
has controls in place to ensure the reasonableness of 
expenditures and to properly account for and monitor funding 
amounts, so that audit work is ongoing.
    Thank you very much.
    [The prepared statement of Ms. Patterson follows:]
    [GRAPHIC] [TIFF OMITTED] T3439.007
    
    [GRAPHIC] [TIFF OMITTED] T3439.008
    
    [GRAPHIC] [TIFF OMITTED] T3439.009
    
    [GRAPHIC] [TIFF OMITTED] T3439.010
    
    [GRAPHIC] [TIFF OMITTED] T3439.011
    
    [GRAPHIC] [TIFF OMITTED] T3439.012
    
    [GRAPHIC] [TIFF OMITTED] T3439.013
    
    [GRAPHIC] [TIFF OMITTED] T3439.014
    
    Mr. Davis. You summed up just as the red light turned. Good 
timing, that's experience.
    Ms. Newman, thank you for being with us.
    Ms. Newman. Good morning, Chairman Davis and Congresswoman 
Norton and members of the subcommittee. I am representing the 
Financial Authority, and we're pleased to appear before you 
today to offer an update on the District of Columbia's progress 
achieving Y2K conversion compliance.
    I will also address briefly the District's overall 
readiness and the challenges that remain. Achieving Y2K 
readiness is of critical importance to the District's ability 
to provide services to the city's residents and visitors alike. 
The authority's role in the District Y2K readiness is to 
provide this city with financial oversight and--you've got a 
red light on, I will talk fast though--financial oversight and 
technical review of key systems.
    Technical review consists primarily for us identifying at 
risk systems and monitoring the status of their repair or 
replacement. In addition, preparation for the new millennium 
must include the development and testing of contingency plans 
to address the possibility that certain systems will not work 
as anticipated. System failures could result either from 
unforeseen problems in the District's own computer hardware and 
software or from glitches and service provided to the District 
such as telecommunications or electricity.
    Recent reports indicate that marked progress has been made 
on a variety of critical projects under way to ready the 
District for January 1, the development of an inventory of all 
District computer systems and identification of systems within 
the inventory that are vulnerable to Y2K problems is complete.
    In addition, nearly two-thirds of those assets either were 
found to be fully compliant, have been fixed and tested or were 
replaced with Y2K compliant systems. We expect to receive 
additional positive reports during the next few weeks as the 
District's aggressive schedule for the final phases of repair 
and testing is completed.
    Finally, contingency plans have been developed for 89 of 
the 94 mission critical business processes that were identified 
within the District, and we understand that the remaining 5 
will be submitted for review by the end of October.
    With respect to the work that remains to be completed, the 
Authority is working with District officials to ensure that the 
highest priority be given to achieving Y2K readiness of all 
systems impacting, health, safety and economic welfare. In 
addition, we are monitoring the testing of contingency plans 
and working with the Mayor's office to ensure that adequate 
resources will be in place to respond to any emergencies that 
may arise on New Year's Day.
    On the financial front, it is fair to say that the District 
was late in instituting rigorous financial accounting and 
reporting to account for the Y2K expenditures. We really should 
not offer and cannot offer an excuse for this, but to a 
significant extent this delay is simply a reflection of the 
District's late start overall in addressing Y2K problems.
    A tight timeframe necessitated an extremely aggressive 
schedule of work in which securing resources to begin 
addressing Y2K took precedence over other considerations, 
including financial accounting and reporting. In spite of the 
tight schedules, however, the Authority's determined to arrive 
at detailed accounting of the resources expended to address Y2K 
readiness. To this end, we are working closely with the Y2K 
program office, the chief financial officer and the principal 
vendors to identify all Y2K expenditures and relate them to 
work accomplished.
    This concludes my prepared statement. I will have a couple 
of comments I would like to make in response to my friend the 
honorable Kathy Patterson, but I will do it later.
    [The prepared statement of Ms. Newman follows:]
    [GRAPHIC] [TIFF OMITTED] T3439.015
    
    [GRAPHIC] [TIFF OMITTED] T3439.016
    
    Mr. Davis. Your green light is on.
    Ms. Patterson. It's OK, I will do it later.
    Mr. Davis. I wish Eleanor would have waited until later. I 
guess we can go to Susan Peck. Thank you.
    Mrs. Peck. Chairman Davis, Representative Norton, members 
of the subcommittee, I'm Susan Peck, the chief technology 
officer for the District of Columbia. At the outset I would 
like to thank Mayor Williams for his strong leadership of the 
District's Y2K efforts.
    We focused our Y2K efforts in the District on those city 
agencies that are most mission critical for the safety, health 
and well-being of District residents. These are on the chart to 
your left. We're tracking to a comprehensive aggressive plan to 
ensure that District provided services in these mission 
critical agencies are not----
    Mr. Davis. Let me just interrupt you. I can't see anything. 
That's a little better.
    Mrs. Peck. They begin with agencies, No. 1, Metropolitan 
Police Department, through No. 18, D.C. General Hospital, and 
are the critical--are the mission critical public safety, 
public health organizations in the city.
    Mrs. Morella. Do we have a chart?
    Mr. Davis. Let's turn them around. I think we've now 
located the charts here. You're not being charged for the time, 
and turn this around so the audience and the press can and the 
cameras can see it.
    Mrs. Peck. There's 18 because they are pneumonics on your 
chart. The Metropolitan Police Department, No. 1; Fire and 
Emergency Management, No. 2; Emergency Management Association, 
No. 3; the Water and Sewer Authority; Department of Health; the 
Department of Human Services; Department of Employment 
Services; the chief financial officer; the Department of Public 
Works; the Department of Corrections, D.C. Public Schools; 
Consumer and Regulatory Authority; the lottery; contracts and--
Office of Contracts and Procurement; Office of Personnel; the 
Mental Health Authority, which is St. Elizabeth's; University 
of the District of Columbia; PBC; and No. 19 are agencies which 
are not themselves mission critical, but have mission critical 
functions.
    Our plan for the District is on two tracks. First, we are 
finding and fixing all date-related problems in the District's 
mission critical computers and equipment. And second, we are 
building and testing alternate operating plans, contingency 
plans, for every mission critical business process that 
delivers services to District residents.
    Let me bring you up to date on where we are in our find and 
fix plans for the systems and equipment in the District. Of 370 
business applications in the District's inventory, 242 or 65 
percent are Y2K ready as they stand, remediated, tested and 
production ready. Of these same 370 systems, 223 have been 
designated as mission critical. Of these, 130 are Y2K ready as 
they stand; 23 remain to be remediated; 39 have been remediated 
and are in testing; and 31 are in process of testing only.
    The last of the 223 mission critical systems will be 
completing their testing by the end of October with return to 
production planned for November. We're remediating mission 
critical systems in 38 partitions or packets of like systems. 
Four of these partitions are on slippage watch, meaning that an 
especially focused attention is being paid and substantial 
resources infused to assure their schedule recovery and 
timeliness.
    Our current strategy is to focus even more now on 
recovering any slippage watch systems in priority order on 
using our management data to help us pay meticulous attention 
to slippages when they first occur and to prioritizing our 
resources to the District's most mission critical areas.
    Of our embedded chip assets, including equipment as varied 
as traffic control signals, utility meters, copiers, metal 
detectors and defibrillators, as of August 30th, over 63,000 of 
these assets were inventoried in the District; 25,000 of these 
are mission critical, but as we stand today, only 368 or 1.5 
percent still need to be fixed or repaired.
    Contingency planning continues to be a major focus of the 
District's Y2K initiative. We focused our planning on 94 
critical services. I'm pleased to report that the phase 1 
contingency planning activities, the writing of the contingency 
plans, is completed for 90 of those 94 critical business 
processes; plans for the remaining 4 processes will be 
completed by the end of October.
    Phase 2 contingency planning has begun and falls within the 
scope of responsibility of the city administrator. 
Implementation and testing of these plans in their agencies is 
expected to complete in November.
    The Y2K schedule we've managed is one we've maintained 
despite numerous hurdles, impediments and discoveries that have 
broadly expanded the scope of the project as it was originally 
envisioned and defined. The extent of dedicated pre-remediation 
technical assistance required in order for the actual systems 
remediation to progress in the District was simply not 
anticipated at the project's outset.
    These activities have absorbed a substantial percentage of 
the project's resources. We've also experienced substantial 
challenges with our financial management.
    With all of these challenges, however, and, nevertheless, 
Y2K has had significant positioning advantages for the 
District's future technology improvement plans. The presence of 
over 300 business and technical professionals across the 
agencies has infused new levels of technical expertise, 
business planning, project management and task management into 
agency structures.
    And in many other ways, the Y2K project is also helping us 
move to a performance-based technology culture for the future 
in the District.
    Thank you.
    [The prepared statement of Mrs. Peck follows:]
    [GRAPHIC] [TIFF OMITTED] T3439.017
    
    [GRAPHIC] [TIFF OMITTED] T3439.018
    
    [GRAPHIC] [TIFF OMITTED] T3439.019
    
    [GRAPHIC] [TIFF OMITTED] T3439.020
    
    [GRAPHIC] [TIFF OMITTED] T3439.021
    
    [GRAPHIC] [TIFF OMITTED] T3439.022
    
    [GRAPHIC] [TIFF OMITTED] T3439.023
    
    [GRAPHIC] [TIFF OMITTED] T3439.024
    
    [GRAPHIC] [TIFF OMITTED] T3439.025
    
    [GRAPHIC] [TIFF OMITTED] T3439.026
    
    [GRAPHIC] [TIFF OMITTED] T3439.027
    
    [GRAPHIC] [TIFF OMITTED] T3439.028
    
    [GRAPHIC] [TIFF OMITTED] T3439.029
    
    Mr. Davis. Suzanne, thank you very much.
    Mr. Brock, thanks for being here.
    Mr. Brock. Thank you, Mr. Chairman.
    Good morning to the other members of the subcommittee. I've 
also had the privilege of testifying before Mrs. Morella and 
Mr. Horn on other Y2K issues such as the Postal Service and the 
Department of Defense.
    I would like to briefly go over three topics; the Y2K 
status of the District, the challenges facing the District in 
the remainder of the year and opportunities for lessons 
learned.
    In terms of the status, if you read my statement, you will 
see differences in the numbers between mine and Mrs. Peck's. I 
think this is largely attributable to, one, some differences in 
coverage, and, second, our cutoff date for our data was largely 
September the 16th, and she has had some updates since then.
    In October, I testified before you, and I said that the 
District was a year late. And in February I testified before 
you, and I said the District was a year late. Today I'm 
testifying and the District is late. There's nothing to do 
about that. They started late and it's right against the wire, 
as the witnesses from the District have said.
    And just so there won't be any misunderstanding as I get 
into my statement, I would like to say in our review of what 
people are doing to remediate the system, that we find that the 
District has an approach that's reasonable and that people in 
the District are working very, very diligently to take 
corrective action.
    With that said, I would like to spend a little bit of time 
talking about the status. We're primarily looking at 18 mission 
critical departments. They are the top 18 agencies, and their 
Y2K office tracks 70 critical projects within those agencies. 
Right now, only 14, or at the time of the end of our review on 
the 16th, only 14 of those projects were implemented. That 
means we have another 56 that are still ready--that are still 
in the wings. They're either being renovated or they're being 
tested or they're in the final stages of implementation.
    So there is still a significant amount of work to do before 
the end of the year. In terms of the contingency planning, at 
the time of our review the District still had 11 of their phase 
1 plans to complete. Most of those were in the Office of 
Consumer and Regulatory Affairs, and I understand that since 
then several others have been completed.
    The phase 2 planning, which is most important, that's when 
you take a piece of paper and you say we're going to do 
something to make it operational, we did not have the status of 
these plans at the time of the end of our review. They're under 
way, but we did not have the schedule as to when they're to be 
complete. So that's the status.
    I think the most important part today--the status, is the 
status--are the challenges. And the District has 98 days, and 
we think that it has two principal challenges. The first 
challenge is that regardless of what's happened in the past 
there's a lot of work to finish, and some of these tests are 
scheduled late into November. A few are scheduled early in 
December. There's very little room for error. There's no room 
for error. If there are any additional slippages, then the 
District could be in trouble on some of these.
    Second, of the projects that have not yet been completed, 
and our review of the schedules, shows some slippages. So 
slippages have occurred. Now, the District has made adjustments 
to their schedule to account for this, and they're still 
scheduled to be complete before the end of the year. But I 
bring this point up just to indicate that slippages can occur 
in schedules. This makes the contingency planning for systems 
and the business continuity planning all the more important.
    So our recommendations to the District are ones that 
they've already recognized, that, one, the District needs to 
have a consistent source of information they use to make 
management decisions. And they need to keep their eye on the 
ball, as systems progress, as the projects progress, as the 
contingency plans progress, to look for evidence of slippages, 
to look for opportunities to reprioritize, if necessary to 
redirect resources, and to direct attention on the most 
important areas, so that in fact the District will have every 
assurance at the end of the year that it will be ready.
    Last, I would like to address the opportunities that the 
District has, and I think these opportunities are significant. 
Mrs. Patterson and Mrs. Peck both recognize that there were 
things that occurred in the District in the past that were 
really things that you could take advantage of to improve in 
the future.
    The simple reason the District is so far behind in 
addressing the Y2K problem is it did not have effective 
management at all over its information technology assets and 
projects. It had no management processes in place that provided 
adequate attention to the pending Y2K problem. As a result, it 
started late. Further, as Mrs. Peck indicated, once they got 
into the project, they found that there was no system 
documentation for many systems. They didn't have a complete 
inventory for systems.
    It was difficult to get started by capitalizing on the 
efforts that they've had to go through in order to get to the 
stage they're at right now. The District has learned that Y2K 
efforts cannot succeed without the involvement of top-level 
managers at the agency level and at the city level.
    The District has recognized that having complete and 
accurate information on information systems can facilitate 
remediation and testing and validation efforts. This is 
critical for any system development effort, whether it's for 
Y2K or otherwise. The District has developed a better 
understanding of its core business processes and has made some 
progress in prioritizing its mission critical systems based on 
their impact on these processes.
    And then, finally, the District, like many other 
organizations that we've looked at, found that they needed to 
take special steps in order to increase their technical 
capabilities to address this problem, and they have in fact 
done so. I think these measures are appropriate for the 
District as they're looking for future technology management 
and hopefully they can learn from this.
    That concludes my summary, Mr. Chairman.
    [The prepared statement of Mr. Brock follows:]
    [GRAPHIC] [TIFF OMITTED] T3439.030
    
    [GRAPHIC] [TIFF OMITTED] T3439.031
    
    [GRAPHIC] [TIFF OMITTED] T3439.032
    
    [GRAPHIC] [TIFF OMITTED] T3439.033
    
    [GRAPHIC] [TIFF OMITTED] T3439.034
    
    [GRAPHIC] [TIFF OMITTED] T3439.035
    
    [GRAPHIC] [TIFF OMITTED] T3439.036
    
    [GRAPHIC] [TIFF OMITTED] T3439.037
    
    [GRAPHIC] [TIFF OMITTED] T3439.038
    
    [GRAPHIC] [TIFF OMITTED] T3439.039
    
    [GRAPHIC] [TIFF OMITTED] T3439.040
    
    [GRAPHIC] [TIFF OMITTED] T3439.041
    
    [GRAPHIC] [TIFF OMITTED] T3439.042
    
    [GRAPHIC] [TIFF OMITTED] T3439.043
    
    [GRAPHIC] [TIFF OMITTED] T3439.044
    
    [GRAPHIC] [TIFF OMITTED] T3439.045
    
    Mr. Davis. Thank you, Mr. Brock.
    Mrs. Jarmon, thank you for being here.
    Mrs. Jarmon. Thank you. Mr. Chairman, and members of the 
subcommittee, I'm pleased to be here today to respond to your 
questions related to the financial management of the District's 
Y2K effort. As several of the witnesses have mentioned, the 
District is aware and has spoke to the fact that there have 
been financial management problems related to this effort.
    You asked us to respond to some specific questions related 
to financial management and that's what my statement today will 
address. It will primarily cover three points: One, the funds 
provided in the District's reported expenditures to date; two, 
the District's ability to track its Y2K costs; and, three, the 
additional funding request requested by the District.
    First in regard to funds provided and reported as 
expenditures. As shown in table 1 of my statement, on page 3, 
the District's draft financial reports for a period from June 
1998 to September 15, 1999 show that almost $100 million had 
been provided for Y2K efforts during that time.
    These reports show that of this amount about $42 million 
had been spent and $54 million had been obligated, leaving 
remaining funds of almost $2 million.
    In regard to my second point, on the District's ability to 
track Y2K costs, District officials told us, and they've 
mentioned today, they have had significant problems in tracking 
Y2K costs and expenditures. They attribute this primarily due 
to significant turnover in key financial positions, and we were 
aware of that and we noted that also.
    Over the past few weeks, the District officials had spent 
considerable resources in their efforts to better track their 
Y2K costs. During this time, however, which is during the time 
of our review, we received inconsistent and unreliable cost 
data from them, and these schedules continued to change.
    It was apparent that the District did not have reliable 
financial data to manage the Y2K project costs and District 
officials are currently reviewing their costs and have found 
examples of invoices received and paid even though the 
District's financial management system had no corresponding 
purchase orders or contract-related information.
    They found examples of invoices paid without adequate 
documentation to justify the amounts paid, and they found 
examples of contractor bills that were paid even though the 
time charges were inaccurate. And from what we've seen, the 
contractor bills have been adjusted for these inaccuracies that 
the District found.
    These practices seem to go on because the District had no 
clear process for reviewing and verifying invoices submitted by 
contractors prior to making payments. And I'm specifically 
referring to the Y2K invoices.
    These kinds of problems, however, with financial management 
in the District are not new and have been reported by GAO, the 
District's Office of Inspector General and the District's 
external auditors. In addition, we were told yesterday, and 
this was mentioned in the Post article this morning, that 
because of these financial management problems the District 
plans to hire a CPA firm to help it track its Y2K costs, and 
also the District's Inspector General plans to begin audit work 
in this area sometime this fall.
    Meanwhile the District's difficulties in tracking its Y2K 
costs make it impossible at this point to determine whether 
these funds were spent properly.
    In regard to my third point on the additional requests 
fund, as shown in table 2 to my statement on page 7, the 
District has requested about $91 million in additional funding 
from OMB to complete its Y2K efforts. They were informed late 
this week that $22 million of this amount is available, and the 
remaining request is being reviewed by OMB.
    In summary, the District cannot reliably track how the 
funds that had been received have been spent, nor say with any 
degree of certainty that the amounts have been spent properly. 
Given the urgency of the tasks of addressing the Y2K problem 
and the fact that the District is behind schedule, it is 
essential that the District have accountability for Y2K funds 
and to do careful planning, budgeting and tracking of 
expenditures. Without this kind of discipline over its efforts, 
it cannot assure the Congress that the additional funds 
requested will be spent as intended.
    Mr. Chairman, this concludes my statement. I will be happy 
to answer questions from you or other members of the 
subcommittee.
    [The prepared statement of Mrs. Jarmon follows:]
    [GRAPHIC] [TIFF OMITTED] T3439.046
    
    [GRAPHIC] [TIFF OMITTED] T3439.047
    
    [GRAPHIC] [TIFF OMITTED] T3439.048
    
    [GRAPHIC] [TIFF OMITTED] T3439.049
    
    [GRAPHIC] [TIFF OMITTED] T3439.050
    
    [GRAPHIC] [TIFF OMITTED] T3439.051
    
    [GRAPHIC] [TIFF OMITTED] T3439.052
    
    [GRAPHIC] [TIFF OMITTED] T3439.053
    
    [GRAPHIC] [TIFF OMITTED] T3439.054
    
    Mr. Davis. Thank you very much. I'm going to start the 
questioning with the gentleman from California. I just make one 
comment. I'm looking at the District of Columbia mission 
critical business process, Y2K contingency planning, in terms 
of where everything is, where the plans develop, where it's 
tested, where it's implemented, and the one that is all green 
is--fortunately, you have the eligibility benefits, and those 
issues which are important to D.C. residents. But you also have 
the revenue generated, because I noticed the lottery appears to 
be Y2K compliant as well.
    And I'll bet you, I can't find it, but I'll bet you that 
the parking tickets are probably Y2K compliant. That has always 
worked in the city even when everything else may be off.
    But the gentleman from California, who, I might add, has 
just been a national leader on the Y2K, will start the 
questioning for 5 minutes, and then to Ms. Norton.
    Mr. Horn. As I recall, at the last Y2K hearing in February 
we were assured that the executive steering committee of the 
District, which had some of the city's top officials, was 
central to resolving the problems involved.
    And I guess I'm asking, I'm told that the committee has not 
met since December 1998 to June 1999. Can somebody explain that 
to me?
    Ms. Newman. I can start by saying that at the beginning of 
this Mayor's administration, the decision was to honor his way 
of managing these kinds of projects. This did not mean that the 
people who were officially involved and listed on the committee 
were not involved.
    We have weekly meetings with the Mayor and his staff. I 
must say that every week the issue of Y2K compliance comes up 
in some form or another. There have been the meetings that the 
Mayor has that I'm sure he will speak about, where there are 
representatives from the Council and the Authority who meet on 
a regular basis. So the fact that that formal group has not met 
should not concern you, because the people who were----
    Mr. Horn. Thank you.
    Mr. Brock, I think you said that there was a lack of 
management focus here. Is that part of it or are there other 
things?
    Mr. Brock. When we started this second or third review, Mr. 
Horn, we did look for evidence of whether the steering 
committee had met; it had not met. We knew that activities were 
taking place. For example, I go to the DOD steering committee 
every month. We also go to the IRS steering committee, et 
cetera. These are very useful in terms of bringing issues to 
the table and having all the parties there and resolving them 
on the spot.
    The initial meetings where we reviewed the minutes of those 
meetings seem to be more oriented toward status checking as 
opposed to using that as an opportunity to refocus priorities. 
Since that time, there has now been an increased focus on using 
forums like that to reach decisions and redirect resources.
    Mr. Horn. Mrs. Peck, let me direct this to you. As I 
understand, the contract with IBM, the prime Y2K contractor, 
lapsed and many of the contract consultants were removed and 
weeks of work were either interrupted or lost. How come?
    Mrs. Peck. I think, Mr. Horn, you're probably referring to 
a slight pause between phase 1 and phase 2 of the contingency 
planning. There was a very, very substantial group of IBM 
consultants helping the agencies on phase 1 of the plan. The 
long-term strategy for phase 2 of the plan was that the actual 
implementation of those written plans would be done principally 
in the agencies. And so there was a planned withdrawal of a 
substantial number of the consultants who had worked on phase 
1. Our discovery was that----
    Mr. Horn. Excuse me. Are those consultants the ones who 
would be remediating the various codes and tapes?
    Mrs. Peck. The consultants have various functions. Some 
were code remediators. All of these that I'm speaking of were 
contingency plan writers, helping the agencies write the 
contingency plans.
    Mr. Horn. Have you had a difficulty in getting people to 
remediate the codes? Are we out of shortage of supply here?
    Mrs. Peck. No.
    Mr. Horn. OK. So you're OK on that because I would suggest 
if you aren't, and a lot of them are in COBOL; is that not 
correct?
    Mrs. Peck. That's correct.
    Mr. Horn. I would ask for the Office of Personnel 
Management to run a tab on it and get those that are still 
retired and not back in, and they've been very supportive in 
terms of you can keep your pension, you can get your wonderful 
contract. And it seems to me, if you're short there, that you 
ought to call on them.
    Let me ask you this, because I've got to move with the 5-
minute rule that I'm a strong believer in. To date only 130 or 
58 percent by our math, of these systems that are year 2000 
ready, how confident are you that you can fix, test, put the 
remaining systems into production by November? Do you feel, 
Mrs. Peck, you can do that?
    Mrs. Peck. My arithmetic on the same figures is a little 
different, because the 130--I count if they are remediated and 
they are in testing, because the remediation is a very 
substantive part. Of the mission critical systems, 90 percent 
of those on the same numbers that you're counting, you're 
counting 130 over 223, I count 200 over 223, because I count 
all of those that have been remediated and are now in testing. 
I am confident. We just yesterday had a very substantial----
    Mr. Horn. I will take that answer. Let me, with one 
question to go here, the District's unemployment benefit 
program, have we looked at that? Because that's one of those 
things that a lot of people would be hurt if they don't get 
their check on time. How are we on that one?
    Mrs. Peck. Both the employment benefits and the employment 
tax system come out of our Department of Employment Services. 
Both of those systems are on schedule. The legacy employment 
benefits contingency remediation is complete and waiting on the 
shelf, in case our new employment benefit system, which is 
planned for production October 18th, is not ready. But in point 
of fact we expect our legacy remediated system never to come 
off the shelf because we expect the new system to be there. In 
terms of the unemployment tax system, it will be in production 
on October 4th.
    Mr. Horn. I thank you all, and my colleagues can ask the 
rest of the questions.
    Mr. Davis. I thank the gentleman.
    I now recognize the gentlelady from the District of 
Columbia, Ms. Norton.
    Ms. Norton. In terms of the difficulties that the city has 
had in the financial management of the Y2K process, I recall 
that with some difficulty we got a financial management system 
authorization out of the Congress a couple of years ago. And so 
you are, I take it, doing Y2K compliance at the same time 
you're instituting a new financial management system.
    I would like to know whether or not that has had anything--
how that system has worked with this process and whether that 
has had anything to do with any of the problems encountered?
    Mrs. Peck. Actually, one of the advantages that we have had 
on this project is the fact that our new financial management 
system, SOAR, is Y2K compliant. That is a very substantive 
system for the city and the fact that it was compliant was an 
advantage to us.
    Ms. Norton. At the same time there have been indications 
that there have been glitches in instituting the financial 
management system in agencies around the city. That's what I'm 
referring to. I recognize that was compliant.
    How does that fit with tracking Y2K, the Y2K expenditures?
    Mayor Williams. If I could speak to that. I think that, you 
know, Congresswoman Norton, any kind of system in my mind is 
not just hardware and software, it's people, it's operations, 
it's process. Certainly instituting the new financial 
management system, for example, a new financial management 
system requires our agencies to do double entry bookkeeping, 
which the old system, even though it was the old accounting 
system, didn't do. So we were trained in a whole new world of 
accounting. Enormous amount of training has gone into 
instituting this system.
    It's very, very important that for this system to work and 
for any system of financial control and reporting to work that 
there be in the chair of Council operations--Kathy Patterson 
talked to this--that it is important that program and financial 
management be--have a unity of purpose and work together.
    And one of the reasons why I strongly believe we want to 
bring this financial team in here is that someone everyone can 
respect, everyone can appreciate, they can go out and get this 
work done, and we don't have the finger pointing that none of 
us want to see and none of us want.
    Ms. Norton. Thank you.
    Ms. Patterson, I must say, I was concerned that only in 
March did the process that the Congress insisted be put in 
place whereby contracts of $1 million and over had to go to the 
Council, only in March was that--that the Council took an 
effort to make sure that that process was not a part of the 
problem. And in July, of course, another action was taken to 
make sure that over the summer that process was not part of the 
problem.
    I just want to say that the Congress never put that process 
in place because it believed that the Council should have 
jurisdiction over contracts of $1 million or more. There is no 
executive in the United States which has to go to its council. 
It put it in place because there was no Financial Control Board 
at the time or it was just starting up, because the Congress 
had no way to check on what seemed to be out-of-control 
contracting.
    I, myself, must say I have not been very pleased with it, 
not because the Congress--the Council hasn't taken action when 
it had to, I was astounded in what we had to go through, and 
the Council did take action on highways--and highways is 
something that should never have had to go in the first place 
because of the way that procurement takes place.
    In any case, I believe that early on in the process that 
the Council was part of the problem that should have been 
waived instantly, some other way found if you needed a check. 
And I need to know whether or not there is a process that is 
automatically in place so that this million dollars and over 
process, which was put in as an emergency, which I think should 
be repealed at the end of the Control Board, whether or not, in 
fact, we have in place things that can move more quickly to get 
that process out of the way when it's part of the problem.
    Ms. Patterson. Ms. Norton, as you know, the requirement 
that the Council review contracts over a million or multiyear 
is in the charter, so there's no legislation that we can do; 
that is something that the Congress needs to act on.
    Ms. Norton. I'm not asking about that. I'm saying you have 
done things. You did something in March, and you did something 
in July. I'm talking about precisely that kind of streamlining 
when you have an emergency, and that's what Y2K was, and it 
seems to me that there was--that March was too late to be 
deciding that we're going to streamline a process. Nothing in 
the charter kept that from happening.
    Ms. Patterson. In terms of the streamlining effort, one of 
the things that we talked about in the hearing that my 
committee held on Wednesday with Mrs. Peck was just as we were 
using the Y2K challenge to improve our IT systems broadly, this 
streamlined procurement for Y2K can be a model for where we go 
for the entire city, and that's something we will be looking at 
over time.
    Ms. Norton. That is something I would urge upon you. And I 
appreciate that you are looking at that.
    Could I ask a question about coordination with the region? 
I know the way we're joined at the hip with the Federal 
Government, and that's part of the reason that we got Federal 
funds. When it comes to regional systems like Metro and water 
and sewer, I'm sure they have their own systems. I need to know 
whether or not in any other way they are tied into the 
District, however, so that we need it or should be doing any 
coordination with the region?
    Mrs. Peck. We are doing two levels of coordination, Ms. 
Norton. We are doing one level of coordination through the 
Council of Governments, and we on September 1st had quite a 
large regional Y2K exercise with seven local regional entities 
and all of the District agencies that was quite successful and 
gave us a good leg up on actual scenarios that might happen at 
the date change.
    We are also within the District doing a great deal of work 
on interagency panels at a second level above individual units 
and at a third level, in the Emergency Management Agency, the 
District's entire plan across all agencies comes together and 
from that plan we link to the FEMA and to the Presidential 
levels if crisis management is necessary.
    Ms. Norton. Thank you.
    Thank you, Mr. Chairman, my red light is up.
    Mr. Davis. Thank you. You will have another round. Let me 
just ask a question if I can, and I think, Mrs. Peck, I will 
address it first to you, and then I will allow the GAO to 
respond.
    Was there, in fact, a lapse in a contract with IBM due to a 
lack of authorization or availability of funding that caused 
the unplanned reduction of contract consultant resources?
    Mrs. Peck. I would describe it as a pause as we understood 
that we needed more resources in a successor phase of a project 
than we had originally planned.
    Mr. Davis. Let me ask you, Mr. Brock, what really happened 
here that we can't account for all of the billings and the 
hours? I mean what went wrong here? Can we get any idea?
    Mr. Brock. Well, Mr. Davis, we don't have any specific 
information on that lapse. We heard about it. One of the 
advantages of a strong financial management system, however, it 
allows you to have the checks and balances in there so that in 
fact you can, one, track that as it goes on and, second, go 
back and retroactively do any sort of analysis that you might 
want to do to look at the issues such as this.
    Mr. Davis. It could in fact just be bookkeeping at this 
point in filling in the blanks and that nothing is amiss?
    Mr. Brock. That's possible. But without further work, I 
would be hesitant to say that.
    Mr. Davis. There hasn't been any allegations of any 
deliberate wrongdoing or anything like that at this point, it's 
just----
    Mr. Brock. We heard none during the course of our audit.
    Mr. Davis. How much has been spent from June 1998 to now on 
the District's Y2K effort, and do you know how much Federal and 
how much local and how much more money you think will be needed 
to get this--it probably will go past January 1, 2000?
    Mrs. Jarmon. The draft reports that we received from the 
District on Monday show that during that period of time from 
June 1998 to September 15, 1999, that they had spent about $42 
million and that they had obligated $54 million, and they 
weren't able to tell us whether they thought more was going to 
be needed, in addition to the supplemental requests that I 
mentioned in my statement. There was a supplemental request of 
about $6 to $8 million that is being reviewed by OMB, and $22 
million was received as of this week.
    Mr. Davis. I would just say on a supplemental request like 
that, it would be wise to send it up here as well as OMB 
because Congress appropriates it. It is good to work through 
all that. But I think Mr. Istook and Senator Hutchinson would 
like to be in that loop as early as possible and not get hit, 
particularly in light of the budget negotiations and 
everything.
    Mrs. Peck, let me ask you, do you agree with those numbers 
at this point and do you foresee about a $6 to $8 million range 
for additional money to get this thing done on Y2K? Do you know 
that?
    Mrs. Peck. I know that we have----
    Mr. Davis. $6 to $8 million, OK.
    Mrs. Peck. I know that we have a total of $97.8 million now 
in total funding with an additional $22 million in research 
receipt.
    Mr. Davis. An additional $22 million in what.
    Mrs. Peck. That we just recently received.
    Mr. Davis. Received. OK. And do you foresee more money 
being needed to finish this?
    Mrs. Peck. Yes.
    Mr. Davis. How much more?
    Mrs. Peck. We have an additional funding request before 
OMB, who gets cranky if we say the number before they've done 
their analysis.
    Mr. Davis. What did you ask for? I'm not asking what they 
said.
    Mrs. Peck. We asked for $68 million additionally.
    Mr. Davis. That was in the testimony. I want to make sure 
we're singing off the same sheet. You won't have everything 
done on January 1. You're on a tight timeline right now. And 
you feel the critical structures, you feel reasonably we will 
be in pretty good shape?
    Mrs. Peck. I'm very confident that the mission critical 
services will be delivered.
    Mr. Davis. Some of the other items, you know, you want to 
get them in as good shape as you can, but you don't have the 
same level of confidence obviously, because you had to 
prioritize; is that correct?
    Mrs. Peck. I'm confident in those mission critical 
services.
    Mr. Davis. Right. But some of the other services they are 
probably not going--some of them may not be ready, is that a 
fair statement?
    Mrs. Peck. There's surely going to be a handful that gets 
out from under the rug, and that's why we've done all of the 
extensive contingency planning that we have done.
    Mr. Davis. It's not your fault. We knew you had a tight 
timeline to get this done from day one and not a lot of room 
for error, and this is pretty complex stuff and very time 
intensive and everything else.
    Do you have an explanation for what might have--where the 
money that can't be accounted for in the IBM contract, and why 
it's not accounted for and what we might do differently?
    Mrs. Peck. We have gone over with the CFO extensively those 
spends, and we find the IBM accounting to be accurate. They 
now, when they submit their invoices, submit not only monthly 
invoices, but submit inception to date statistics so that we 
can see every one of their consultants for every month for 
every hour, for every agency that they've worked at. So I think 
we're closing in on the problem of having that information.
    Mr. Davis. Do you have a good enough staff, competent 
enough staff, understanding the complexities of this issue, to 
sit over IBM and know if they're doing the right thing or not?
    Mrs. Peck. Absolutely.
    Mr. Davis. Let me just ask this. If you could rate it, how 
effective does GAO believe the District has been in managing 
the funds it's received?
    Mrs. Jarmon. To date, based on what we've seen, and we've 
primarily been looking at this over the last 2 or 3 weeks when 
we received the questions, there have been a lot of problems, 
and the management of the funds, you have to take into account 
the emergency nature of this, have not been effective during 
that time based on what we're looking at. We are encouraged by 
the recent efforts and the plan to bring in additional 
expertise, but it hasn't.
    Mr. Davis. Thank you, my time is up. I'm going to yield to 
Mrs. Morella. I will just say as often happens in emergencies 
we find with FEMA and other groups, when you try and get the 
money through and the contracts through sometimes the 
formalities of accounting for it takes second place to getting 
the mission done. And I'm encouraged by the city's attitude 
here that we want to sit and make it right instead of just 
being defensive. This is tough.
    At the end of the day, we will want to solve this problem, 
and we want to solve it in a timely manner, that's No. 1. 
There's other stuff, I think we try and work as we can.
    Mrs. Morella, I'm going to recognize you, and then back to 
Ms. Norton.
    Mrs. Morella. Yes, thank you, Mr. Chairman, I appreciate 
it.
    I appreciate all you coming here to discuss this very, very 
important issue, and I think the eyes of the Nation are on the 
District of Columbia.
    Mr. Brock, as usual it's good to see you and to know that 
we have with Mrs. Jarmon, we have GAO doing a lot of the 
monitoring, and I would agree with what you said in your 
testimony that the plan shows that four projects won't be 
tested until November, and another seven in December. And as 
you said in your oral testimony, all of this is pretty risky.
    So I guess I would ask you, in addition to thanking you for 
your candid assessment of the situation of the readiness, which 
of the District's critical services could be jeopardized due to 
potential year 2000 failures?
    Mr. Brock. I think that any of the critical structures 
could be in jeopardy because of the interrelationship among the 
various services, which is one of the reasons the contingency 
planning, the business continuity planning and the exercises 
they're planning are so critical, that until you do these types 
of exercises sometimes you don't recognize the 
interrelationships that something occurring in one department 
actually has a ripple effect in another department.
    That's why fixing a system alone is not enough. Until you 
do the, what we would call the end-to-end testing and test 
those systems within a process, and then test the contingency 
plans and the business continuity plans to see that they will 
work, I would consider the systems at risk.
    Mayor Williams. Could I augment that or chime in there?
    Mrs. Morella. Certainly, Mr. Mayor.
    Mayor Williams. I think we want to be conservative, because 
I think you managed to hear the problem, and we've got some 
problems and challenges that we recognize. But I think that, 
you know, from the beginning of the year, we met with all of 
the agencies in the cabinet once a week, you know, and queried 
them on a number of top priorities, and in my world, everything 
is a top priority, and you distinguish between the top 
priorities that are blowing up and the top priorities that are 
just a simple top priority.
    So there's no--there is no excuse. I'm not going to sit 
here and say there's an excuse for not having convened the 
steering committee earlier. In hindsight I should have done 
that, but the fact is you're just managing a number of 
emergencies all the time, and I thought that the cabinet was 
the right way to bring everything to the table on a regular 
basis.
    Second, we got information flow in terms of financial 
management, in terms of program management. We managed that 
information. The information we were getting is that the 
project was challenging, but that it was on track. As we got 
additional information that we needed to make some judgments, 
we went out in the field and did those adjustments, and we will 
continue to make those adjustments.
    Third, I want to assure everyone on the committee and 
everyone in our city that this city is going to be ready, 
either because mission critical systems are going to work, 
which I think by and large they will, I have confidence that 
they will.
    But even if they don't and to the extent other nonmission 
critical systems don't, that this stage 1 and 2 contingency 
planning that we're working very, very aggressively is 
automatically going to happen, and I say that because I brought 
in Peter LaPorte, who was a former emergency management 
director in the State of Massachusetts, who worked with Chief 
Braden in New York. He has got extensive emergency management 
public safety experience. He is working on the scene with us on 
this matter.
    We also have Robert Fletcher from FEMA, who we have gotten 
from Federal Emergency Management, who is working with us on 
our contingency planning. We're working very aggressively on 
this. I think we have some top flight people on the problem. So 
I'm not disputing GAO that there is major challenges. But I 
just want to give everyone a notion of assurance that, as John 
Koskinen says, that we're managing to the problem because I 
believe we are.
    Mrs. Morella. I think we have to do that and I would agree, 
as I have said before, I think that we shouldn't assume the 
Chicken Little stance that the sky is falling, nor the 
Pollyanna stance that there's nothing to worry about. But I 
think it also links up to the coordination.
    And I guess, Mrs. Peck, are you having difficulty 
coordinating with the private vendors, your subcontractors? 
What are you doing about that coordination?
    Mrs. Peck. We really are not having difficulties in that 
area. Every day is a challenge. Every day we need to get that 
day's work fully done to go on to the next, and every day there 
are difficulties, but there are not extensive coordination 
difficulties. Our contractors have really been powerful in the 
support of the District in this project.
    Mrs. Morella. Which then leads to end-to-end testing. Have 
you done some end-to-end testing then to make sure that you are 
able to connect with the entities that you're dependent upon, 
which includes subcontractors, which includes business 
entities?
    Mrs. Peck. We really--I'm sorry, I thought you meant our 
Y2K contractors who have been extraordinarily supportive. 
Independent supply line providers have their own independent 
Y2K plans, while we have done the very--the very substantive 
cog effort, we are depending on the assertions of those third-
party suppliers to a great extent that the compliance they 
assert is the compliance they actually have.
    For our non-IT assets, we have done, however, even with the 
assertions of third-party suppliers, we have done a very 
substantial amount of testing ourselves of all of the embedded 
chip gear that the District has that's mission critical.
    Mrs. Morella. Does the chief technology officer report 
directly to the Mayor?
    Mayor Williams. All of our agency heads meet with me 
weekly. All of my agency heads have access to me whenever they 
want that access. And I've told Susan personally she can talk 
to me any time she needs to on whatever basis she needs to, 
although in our city charter, our agencies report to the Mayor 
through the city administrator.
    Mrs. Morella. I want to give you an opportunity to respond. 
But I want to thank you also, Mrs. Jarmon, for your concept and 
the question about where this money is going and all of you as 
we count down, we wish you well, we will be watching.
    Mr. Davis. Thank you very much.
    Ms. Norton.
    Ms. Norton. Mr. Chairman, in order to allow those who have 
the vote to be able to vote, I will be brief and confine myself 
to two questions.
    I think the public would like--we are using language that 
we necessarily have to use by contingency planning. I think the 
public might find it useful to have real world examples of 
contingency plans for mission critical systems, you know, 
suppose 911 goes out. You pick them. Give us some examples that 
make us--that would give us some confidence that we're going to 
be OK.
    Mrs. Peck. I think 911 is a wonderful example. In the case 
where--and the District is also in the situation where 
historically, because of the lack of investment in technology, 
we probably operated according to contingency plans more than 
we would have liked. When the automatic 911 dispatch system 
goes out, is not working, the function that that system does is 
really to present the call dispatchers with the address of the 
party who is--who is calling, to locate that caller.
    When that cannot be done systematically, it is done with 
substantial computer printouts of every address in the District 
and the operational difference in 911 between having an 
automated system and a manual system is that the dispatch is 
approximately 30 to 60 seconds longer on the manual dispatch 
than it is on the systems dispatch.
    I was just handed, and if I may, Ms. Norton, I would like 
to alert District residents that this Sunday in their 
Washington Post supplement will be a Washington, DC, home guide 
to emergency preparedness. It is for the District's residents, 
not only a guide for Y2K preparatory activities, but it is also 
a general emergency preparation guide that they can use in any 
emergency, and that will be in their Washington Post supplement 
this Sunday.
    Ms. Norton. It will tell me if I call D.C. General and I 
can't get through, it will tell me what you all have in place, 
for example--and what do you have in place, because D.C. 
General was supposed to be one of those mission critical 
agencies that was not fully ready?
    Mrs. Peck. Our expectation is that the D.C. General patient 
care system, which we are now remediating, will indeed be 
ready. But, again, D.C. General has full patient care 
contingency plans in the alternative.
    I might also mention that residents can, beginning on 
October 1st, dial the Mayor's central citizen information 
number, 727-1000, and that number will have all the 
information, Y2K information, that citizens need and will be 
able to respond to any Y2K questions that they have.
    Mayor Williams. I want to echo on that, Congresswoman 
Norton. We've also through our chiefs suspended our leave. 
We've also sent out a Mayor's order that essentially largely 
suspends any leave for many of our mission critical nonpublic 
safety personnel. We're going to have fully staffed, not only 
with District personnel, but with our Federal partners with 
connection to the regional command center that it will be up 
and operating days before the actual moment of truth, January 
1st.
    Ms. Norton. Finally, we've been talking about mission 
critical systems. Has anything been done with nonmission 
critical systems? Are we going to have a collapse of those 
systems because we've put so much attention on mission critical 
systems?
    Mrs. Peck. This is why when Mr. Davis asked me the 
question, I was so assertive that we would be ready. We speak 
just to emphasize the priority of the 18--of the mission 
critical systems at the 18 mission critical agencies, but to 
Mr. Horn--in responding to Mr. Horn's question, my response was 
to every system of the District, to all 370 systems of the 
District, and while those are--many of those are priority 2 and 
priority 3 systems, the remediation, the testing and the return 
to production is of all of the systems and our report is on all 
of the systems, not just the mission critical.
    Ms. Norton. Thank you. That's important to know that even 
with the priorities, you think all the systems are receiving 
the same attention.
    Thank you, Mr. Chairman.
    Mr. Davis. Thank you very much.
    Just a couple of questions before we wrap up. The District 
discontinued its New Year's Eve event at the Old Post Office 
due at least in part to crowd management issues. How will the 
new millennium celebration be implemented? Can Congress be 
ensured that crowd management will be sufficient? Have we 
looked at this? And will this event interfere with routine or 
emergency city services, and is it being taken into account in 
the Y2K planning?
    If you would like we can give you time to answer that in 
writing if you want to do it.
    Mayor Williams. If I can, the short answer, Mr. Chairman, 
is that we've been working closely with the Federal authorities 
as we did, for example, with NATO, it was very, very successful 
working with them on the millennium. And I don't see that there 
will be any impact on our government services, but we can get 
you a detailed answer in writing.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T3439.055
    
    [GRAPHIC] [TIFF OMITTED] T3439.056
    
    [GRAPHIC] [TIFF OMITTED] T3439.057
    
    [GRAPHIC] [TIFF OMITTED] T3439.058
    
    [GRAPHIC] [TIFF OMITTED] T3439.059
    
    [GRAPHIC] [TIFF OMITTED] T3439.060
    
    [GRAPHIC] [TIFF OMITTED] T3439.061
    
    [GRAPHIC] [TIFF OMITTED] T3439.062
    
    [GRAPHIC] [TIFF OMITTED] T3439.063
    
    [GRAPHIC] [TIFF OMITTED] T3439.064
    
    [GRAPHIC] [TIFF OMITTED] T3439.065
    
    [GRAPHIC] [TIFF OMITTED] T3439.066
    
    [GRAPHIC] [TIFF OMITTED] T3439.067
    
    [GRAPHIC] [TIFF OMITTED] T3439.068
    
    [GRAPHIC] [TIFF OMITTED] T3439.069
    
    [GRAPHIC] [TIFF OMITTED] T3439.070
    
    [GRAPHIC] [TIFF OMITTED] T3439.071
    
    [GRAPHIC] [TIFF OMITTED] T3439.072
    
    [GRAPHIC] [TIFF OMITTED] T3439.073
    
    [GRAPHIC] [TIFF OMITTED] T3439.074
    
    [GRAPHIC] [TIFF OMITTED] T3439.075
    
    [GRAPHIC] [TIFF OMITTED] T3439.076
    
    [GRAPHIC] [TIFF OMITTED] T3439.077
    
    [GRAPHIC] [TIFF OMITTED] T3439.078
    
    [GRAPHIC] [TIFF OMITTED] T3439.079
    
    [GRAPHIC] [TIFF OMITTED] T3439.080
    
    [GRAPHIC] [TIFF OMITTED] T3439.081
    
    [GRAPHIC] [TIFF OMITTED] T3439.082
    
    [GRAPHIC] [TIFF OMITTED] T3439.083
    
    [GRAPHIC] [TIFF OMITTED] T3439.084
    
    [GRAPHIC] [TIFF OMITTED] T3439.085
    
    [GRAPHIC] [TIFF OMITTED] T3439.086
    
    [GRAPHIC] [TIFF OMITTED] T3439.087
    
    [GRAPHIC] [TIFF OMITTED] T3439.088
    
    [GRAPHIC] [TIFF OMITTED] T3439.089
    
    [GRAPHIC] [TIFF OMITTED] T3439.090
    
    [GRAPHIC] [TIFF OMITTED] T3439.091
    
    [GRAPHIC] [TIFF OMITTED] T3439.092
    
    [GRAPHIC] [TIFF OMITTED] T3439.093
    
    [GRAPHIC] [TIFF OMITTED] T3439.094
    
    [GRAPHIC] [TIFF OMITTED] T3439.095
    
    [GRAPHIC] [TIFF OMITTED] T3439.096
    
    [GRAPHIC] [TIFF OMITTED] T3439.097
    
    [GRAPHIC] [TIFF OMITTED] T3439.098
    
    [GRAPHIC] [TIFF OMITTED] T3439.099
    
    [GRAPHIC] [TIFF OMITTED] T3439.100
    
    [GRAPHIC] [TIFF OMITTED] T3439.101
    
    [GRAPHIC] [TIFF OMITTED] T3439.102
    
    [GRAPHIC] [TIFF OMITTED] T3439.103
    
    [GRAPHIC] [TIFF OMITTED] T3439.104
    
    [GRAPHIC] [TIFF OMITTED] T3439.105
    
    [GRAPHIC] [TIFF OMITTED] T3439.106
    
    [GRAPHIC] [TIFF OMITTED] T3439.107
    
    [GRAPHIC] [TIFF OMITTED] T3439.108
    
    [GRAPHIC] [TIFF OMITTED] T3439.109
    
    [GRAPHIC] [TIFF OMITTED] T3439.110
    
    [GRAPHIC] [TIFF OMITTED] T3439.111
    
    [GRAPHIC] [TIFF OMITTED] T3439.112
    
    [GRAPHIC] [TIFF OMITTED] T3439.113
    
    [GRAPHIC] [TIFF OMITTED] T3439.114
    
    [GRAPHIC] [TIFF OMITTED] T3439.115
    
    [GRAPHIC] [TIFF OMITTED] T3439.116
    
    [GRAPHIC] [TIFF OMITTED] T3439.117
    
    [GRAPHIC] [TIFF OMITTED] T3439.118
    
    [GRAPHIC] [TIFF OMITTED] T3439.119
    
    [GRAPHIC] [TIFF OMITTED] T3439.120
    
    [GRAPHIC] [TIFF OMITTED] T3439.121
    
    [GRAPHIC] [TIFF OMITTED] T3439.122
    
    [GRAPHIC] [TIFF OMITTED] T3439.123
    
    [GRAPHIC] [TIFF OMITTED] T3439.124
    
    [GRAPHIC] [TIFF OMITTED] T3439.125
    
    [GRAPHIC] [TIFF OMITTED] T3439.126
    
    [GRAPHIC] [TIFF OMITTED] T3439.127
    
    [GRAPHIC] [TIFF OMITTED] T3439.128
    
    [GRAPHIC] [TIFF OMITTED] T3439.129
    
    [GRAPHIC] [TIFF OMITTED] T3439.130
    
    [GRAPHIC] [TIFF OMITTED] T3439.131
    
    [GRAPHIC] [TIFF OMITTED] T3439.132
    
    [GRAPHIC] [TIFF OMITTED] T3439.133
    
    [GRAPHIC] [TIFF OMITTED] T3439.134
    
    [GRAPHIC] [TIFF OMITTED] T3439.135
    
    [GRAPHIC] [TIFF OMITTED] T3439.136
    
    [GRAPHIC] [TIFF OMITTED] T3439.137
    
    [GRAPHIC] [TIFF OMITTED] T3439.138
    
    [GRAPHIC] [TIFF OMITTED] T3439.139
    
    [GRAPHIC] [TIFF OMITTED] T3439.140
    
    [GRAPHIC] [TIFF OMITTED] T3439.141
    
    [GRAPHIC] [TIFF OMITTED] T3439.142
    
    [GRAPHIC] [TIFF OMITTED] T3439.143
    
    Mr. Davis. OK. Let me just ask, does anybody want to add 
anything they didn't do? Is everybody OK?
    I want to congratulate Susan Peck and her team on her 
effort. There's always going to be glitches around. I want to 
thank the GAO for their insights on this, everybody's 
willingness to work together for our Nation's Capital, and I 
appreciate it and I think it's going to make the big 
difference.
    Without objection, all written statements submitted by 
witnesses will be made a part of the permanent record. The 
record will remain open for 10 days. The subcommittee will 
continue to work with all interested parties.
    At our next hearing maybe we will deal with the Y3K issue. 
These proceedings are closed.
    [Whereupon, at 12:40 p.m., the subcommittee was adjourned.]

                                   - 

</pre></body></html>
